;

Supreme Judicial Court for the Commonwealth of Massachusetts
John Adams Courthouse
One Pemberton Square, Suite 1400, Boston, Massachusetts 02108-1724
Telephone (617) 557-1020, Fax 617-557-1145

Essex Superior Court
Clerk for Criminal Business
56 Federal Street
Salem, MAO 1970

'RE:

Docket No. FAR-28082

COMMONWEALTH
vs.
PETER HURLEY
Essex Superior Court No. 1177CR01351
A.C. No. 2020-P-0502
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on March 11, 2021, the application for further appellate review was
denied.
Francis V. Kenneally Clerk
Dated: March 11, 2021
To: Catherine L. Semel,A.D.A.
Jon R. Maddox, Esquire
Essex Superior Court

:-n
co
m
x
T=»

1X3
-

O')

01 '3m
> 3
••

o
o

■ «c* ■ §
JO —<

Commonwealth of Massachusetts
Appeals Court for the Commonwealth
At Boston
In the case no. 20-P-502
COMMONWEALTH
vs.

i

PETER HURLEY.
Pending in the Superior
Court for the County of Essex
Ordered, that the following entry be made on the docket:
The finding of guilty of
operating a motor vehicle
under the influence of
intoxicating liquor, fifth
offense, is affirmed.

i

i

By the Court,
cE5~
ate January 26, 2021.

f Clerk

NOTICE:
Summary decisions issued by the Appeals Court pursuant: to M.A.C. Rule
23.0, as appearing in 97 Mass. App. Ct. 1017 (2C20) {formerly known as rule 1:28,
as amended by 73 Mass. App. Ct. 1001 [2009]), are primarily directed to the parties
and, therefore, may not fully address the facts of the case or the panel's
decisional rationale, Moreover, such decisions are not circulated to the entire
court and, therefore, represent only the views of the panel that decided the case.
A summary decision pursuant to rule 23.0 or rule 1:28 issued after February 25,
2008, may be cited for its persuasive value but, because of the limitations noted
above, not as binding precedent. See Chace v. Curran, 71 Mass. App. Ct. 258, 260
n.4 (2008) .

i

i.

COMMONWEALTH OF MASSACHUSETTS
i

APPEALS COURT
i

20-P-502
COMMONWEALTH
vs.
PETER HURLEY.
MEMORANDUM AND ORDER PURSUANT TO RULE 23.0
At issue is whether the judge, after a bench trial on the
subsequent offense portion of operating a motor vehicle under
the influence of intoxicating liquor (OUI), properly found that
the defendant had four or more previous OUI convictions.

We
► •

t

affirm.
The defendant was charged with OUI, as a fifth offense,
G. L. c. 90, § 24

(1); resisting arrest, G. L. c. 268, § 32B;

threatening to commit a crime, G. L. c. 275, § 2; and operating
a motor vehicle with a suspended license, subsequent offense,
G. L. c. 90, § 23.

After a jury trial, the defendant was

convicted of all charges except for that of operating with a
suspended license (which had previously been nolle prossed).
The subsequent offense portion of the OUI charge, which had been
bifurcated, was tried to the judge who found that: the defendant

had four or more previous OUI convictions.

A panel- of this

court affirmed the convictions, Commonwealth v. Hurley, 93 Mass.
App. Ct. 1116 (2018), but vacated the subsequent offense finding
because the defendant had not waived his right to trial by jury
and remanded for retrial.

After remand, the defendant waived

his right to a jury trial, and a trial to a different judge
occurred solely on the subsequent portion of the OUI charge.
After this retrial, the defendant was again found to have been
previously convicted four or more times of OUI.

This appeal

followed.
On appeal, the defendant does not challenge that — as a
matter of fact -- he has five previous OUI convictions.1
Instead, he argues that -- as a matter of contract law -- only
the three convictions that occurred during the ten years before
his 2000 plea can be counted.2

This argument turns on the

defendant's contention that a plea agreement in 2000 pursuant to
which he pleaded guilty to OUI, third offense, contained a term
limiting the Commonwealth to counting only the two convictions
that could be counted under the ten-year look-back period in

1 The defendant acknowledges that he has been previously
convicted of OUI in 1982, 1983, 1992 (twice), and 2000.
2 In his brief, the defendant makes an argument to the same
effect under principles of collateral estoppel. At oral
argument, however, he acknowledged that collateral estoppel
•would depend on his contract-based arguments.
We accordingly do
not address collateral estoppel separately here.
2

i

effect at that time.

Therefore, the defendant's argument

continues, as a matter of contract law, he cannot be deemed to
have more than three convictions now (the two earlier ones, plus
the one resulting from the 2000 plea).
i.

This argument fails, if for no other reason, because the
record does not support it.

The only evidence the defendant has

produced regarding the 2000 conviction was the docket sheet
showing that he pleaded guilty to OUI as a third offense.

There

is absolutely no indication that that plea was the result of an
agreement, or that the Commonwealth made promises or statements
regarding the counting of his previous OUI convictions to induce
his plea.
611-612

Contrast Commonwealth v. Cruz,

(2004)

62 Mass. App. Ct. 610,

(" [W]hen a plea rests in any significant degree

on a promise or agreement of the prosecutor, so that it can be
said to be part of the inducement or consideration, such promise
must be fulfilled"

[citation omitted]).

Indeed, there is no

information regarding the 2000 conviction other than the naked
fact that- the defendant chose to plead guilty to OUI as a third
offense, and the sentence he received as a result.3
The defendant also argues that the statutory ten-year
lookback period in existence at the time he tendered his plea in

3 We rejected the defendant's collateral attack to his two 1992
See Commonwealth v.
OUI convictions for similar reasons.
Hurley, 91 Mass. App. Ct. 1121 (2017).
3

r
i

I
2000 became an implicit term of his plea "agreement."

Even were

we to assume, despite the absence of evidence, that an agreement
existed,

”[t]here is no merit to the defendant’s argument .

.

that amendments to G. L. c. 90, § 24(1) (a_) (1), enlarging the
reach back1 period for prior offenses, constitute a breach of
contract, for the reason (among others) that the statutory
amendments had no effect on the plea agreement the defendant
entered in[to previously]; instead they affect only the
collateral consequences of the defendant's prior convictions on
the defendant's subsequent .

.

. offense."

McMullin, 76 Mass. App. Ct. 904,

904 n.l

Commonwealth v.

(2010).

Finally, although the defendant suggests as part of his
contract argument that applying a subsequent look-back provision
>

may violate constitutional principles regarding ex post facto

i

laws, the Supreme Judicial Court has repeatedly held that the
amendments to the look-back provisions pose no such problem.
See Commonwealth v. Corbett, 422 Mass. 391,

393-394

quoting Commonwealth v. Murphy, 389 Mass. 316, 320

(1996),
(1983)

(■'[t]he enhanced punishment is imposed for a subsequent
violation; it is not retroactive punishment for the first").
See also Commonwealth v. Maloney, 447 Mass. 577, 591

(2006)

(repeat offender provision of OUI statute pertains solely to
punishment).

i

4

■

1
1

I
I

• The finding of guilty of operating a motor vehicle under
the influence of intoxicating liquor, fifth offense, is
affirmed.
So ordered.
By the Court (Wolohojian,
Henry & Singh, JJ.4),

t

1

Clerk
Entered:

January 26, 2021.

I
i

Ii .
i

4 The panelists are listed in order of seniority.
5

